Washington, D.C. 20530

April 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Leonard Glen Overmyer v. United States of America,
S.Ct. No. 20-7313
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on February 26, 2021.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due on April 28, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 28, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7313
OVERMYER, LEONARD GLEN
USA

LEONARD OVERMYER
222 CASS STREET
TRAVERSE CITY, MI 49684

